                  Department of Veterans Affairs
                  Office of Inspector General


                    Office of Healthcare Inspections

Report No. 13-00026-276




      Community Based Outpatient

             Clinic Reviews

                    at

      Coatesville VA Medical Center

            Coatesville, PA





August 20, 2013

                        Washington, DC 20420
                     Why We Did This Review
The VA OIG is undertaking a systematic review of the VHA’s CBOCs to assess
whether CBOCs are operated in a manner that provides veterans with
consistent, safe, high-quality health care.

The Veterans’ Health Care Eligibility Reform Act of 1996 was enacted to
equip VA with ways to provide veterans with medically needed care in a
more equitable and cost-effective manner. As a result, VHA expanded the
Ambulatory and Primary Care Services to include CBOCs located throughout
the United States. CBOCs were established to provide more convenient
access to care for currently enrolled users and to improve access opportunities
within existing resources for eligible veterans not currently served.

Veterans are required to receive one standard of care at all VHA health care
facilities. Care at CBOCs needs to be consistent, safe, and of high quality,
regardless of model (VA-staffed or contract). CBOCs are expected to comply
with all relevant VA policies and procedures, including those related to quality,
patient safety, and performance.

 To Report Suspected Wrongdoing in VA Programs and Operations
                     Telephone: 1-800-488-8244
                     E-Mail: vaoighotline@va.gov
  (Hotline Information: http://www.va.gov/oig/hotline/default.asp)
                                                                    CBOC Reviews at Coatesville VAMC



                                              Glossary
                       C&P      credentialing and privileging
                       CBOC     community based outpatient clinic
                       EHR      electronic health record
                       EOC      environment of care
                       FPPE     Focused Professional Practice Evaluation
                       FY       fiscal year
                       MH       mental health
                       NC       noncompliant
                       NCP      National Center for Health Promotion and
                                Disease Prevention
                       OIG      Office of Inspector General
                       VAMC     VA Medical Center
                       VHA      Veterans Health Administration
                       VISN     Veterans Integrated Service Network
                       WH       women’s health




VA OIG Office of Healthcare Inspections
                                                                                     CBOC Reviews at Coatesville VAMC



                                            Table of Contents

                                                                                                                            Page

Executive Summary ...................................................................................................             i


Objectives and Scope ................................................................................................             1

  Objectives ...............................................................................................................      1

  Scope and Methodology .........................................................................................                 1


CBOC Profiles ............................................................................................................        3


WH and Vaccination EHR Reviews – Results and Recommendations..................                                                    4

  WH..........................................................................................................................    4

  Vaccinations ...........................................................................................................        5


Onsite Reviews – Results and Recommendations..................................................                                    7

  CBOC Characteristics.............................................................................................               7

  C&P ........................................................................................................................    8

  EOC and Emergency Management ........................................................................                           9


Appendixes
  A. VISN 4 Director Comments ...............................................................................                    11

  B. Coatesville VAMC Director Comments..............................................................                            12

  C. OIG Contact and Staff Acknowledgments .........................................................                             14

  D. Report Distribution.............................................................................................            15





VA OIG Office of Healthcare Inspections
                                                               CBOC Reviews at Coatesville VAMC



                                Executive Summary

Purpose: We evaluated select activities to assess whether the CBOCs operated in a
manner that provides veterans with consistent, safe, high-quality health care.

We conducted an onsite inspection of the Springfield CBOC during the week of
April 1, 2013.

The review covered the following topic areas:

   WH

   Vaccinations

   C&P

   EOC

   Emergency Management

For the WH and vaccinations topics, EHR reviews were performed for patients who
were randomly selected from all CBOCs assigned to the respective parent facilities.
The C&P, EOC, and emergency management onsite inspections were only conducted
at the randomly selected CBOC listed in Table 1.

    VISN        Facility                  CBOC Name                Location
      4         Coatesville VAMC          Springfield              Springfield, PA
                                     Table 1. Site Inspected

Review Results: We made recommendations in one review area.

Recommendations: The VISN and Facility Directors, in conjunction with the
respective CBOC managers, should take appropriate actions to:

	 Ensure that patients with normal cervical cancer screening results are notified of
   results within the defined timeframe and that notification is documented in the EHR.

	 Ensure that the ordering provider or surrogate is notified of normal cervical cancer
   screening results within the allotted timeframe and that notification is documented in
   the EHR.




VA OIG Office of Healthcare Inspections                                                      i
                                                   CBOC Reviews at Coatesville VAMC


Comments
The VISN and Facility Directors concurred with our recommendations and provided
acceptable improvement plans. (See Appendixes A and B, pages 11–13, for the
Directors’ comments.) We will follow up on the planned actions until they are
completed.




                                               JOHN D. DAIGH, JR., M.D.
                                             Assistant Inspector General for
                                                  Healthcare Inspections




VA OIG Office of Healthcare Inspections                                          ii
                                                                       CBOC Reviews at Coatesville VAMC



                                  Objectives and Scope

Objectives
	 Evaluate whether CBOCs comply with selected VHA requirements regarding the
   provision of cervical cancer screening, results reporting, and WH liaisons.
	 Evaluate whether CBOCs properly provided selected vaccinations to veterans
   according to Centers for Disease Control and Prevention guidelines and VHA
   recommendations.
	 Determine whether CBOC providers are appropriately credentialed and privileged in
   accordance with VHA Handbook 1100.19. 1
	 Determine whether CBOCs are in compliance with standards of operations
   according to VHA policy in the areas of environmental safety and emergency
   planning.2

Scope and Methodology
Scope

We reviewed selected clinical and administrative activities to evaluate compliance with
requirements related to patient care quality and the EOC. In performing the reviews, we
assessed clinical and administrative records as well as completed onsite inspections at
randomly selected sites. Additionally, we interviewed managers and employees. The
review covered the following five activities:

      	   WH

      	   Vaccinations

      	   C&P

      	   EOC

      	   Emergency Management

Methodology

To evaluate the quality of care provided to veterans at CBOCs, we conducted EHR
reviews for the WH and vaccinations topic areas. For WH, the EHR reviews consisted
of a random sample of 50 women veterans (23–64 years of age). For vaccinations, the
EHR reviews consisted of random samples of 75 veterans (all ages) and 75 additional
veterans (65 and older), unless fewer patients were available, for the tetanus and


1
    VHA Handbook 1100.19, Credentialing and Privileging, November 14, 2008.

2
    VHA Handbook 1006.1, Planning and Activating Community-Based Outpatient Clinics, May 19, 2004.



VA OIG Office of Healthcare Inspections                                                               1
                                                                            CBOC Reviews at Coatesville VAMC


pneumococcal reviews, respectively. The study populations consisted of patients from
all CBOCs assigned to the parent facility.3

The C&P, EOC, and emergency management onsite inspections were only conducted
at the randomly selected CBOCs. One CBOC was randomly selected from the
56 sampled parent facilities, with sampling probabilities proportional to the numbers of
CBOCs eligible to be inspected within each of the parent facilities.4

In this report, we make recommendations for improvement. Recommendations pertain
to issues that are significant enough to be monitored by the OIG until corrective actions
are implemented.

We conducted the inspection in accordance with Quality Standards for Inspection and
Evaluation published by the Council of the Inspectors General on Integrity and
Efficiency.




3
    Includes all CBOCs in operation before October 1, 2011.

4
    Includes 96 CBOCs in operation before October 1, 2011, that had 500 or more unique enrollees.



VA OIG Office of Healthcare Inspections                                                                   2
                                                                                                                      CBOC Reviews at Coatesville VAMC



                                                               CBOC Profiles

To evaluate the quality of care provided to veterans at CBOCs, we designed reviews with an EHR component to capture data for
patients enrolled at all of the CBOCs under the parent facilities’ oversight.5 The table below provides information relative to each
of the CBOCs under the oversight of the respective parent facility.

                                                                                                     Uniques FY            Visits FY
VISN      Parent Facility                      CBOC Name                           Locality6           20127                 20128         CBOC Size9
                                                Spring City                         Urban               2,927               10,640          Mid-Size
                                             (Spring City, PA)
    4   Coatesville VAMC
                                                Springfield                          Urban               3,684              15,301            Mid-Size
                                             (Springfield, PA)
                                                                    Table 2. Profiles




5
  Includes all CBOCs in operation before October 1, 2011.

6
  http://vaww.pssg.med.va.gov/

7
  http://vssc.med.va.gov

8
  http://vssc.med.va.gov

9
  Based on the number of unique patients seen as defined by VHA Handbook 1160.01, Uniform Mental Health Services in VA Medical Centers and Clinics,

September 11, 2008, the size of the CBOC facility is categorized as very large (> 10,000), large (5,000-10,000), mid-size (1,500-5,000), or small (< 1,500).



VA OIG Office of Healthcare Inspections                                                                                                                   3
                                                                         CBOC Reviews at Coatesville VAMC



                     WH and Vaccination EHR Reviews

                      Results and Recommendations

WH
Cervical cancer is the second most common cancer in women worldwide. 10 Each year,
approximately 12,000 women in the United States are diagnosed with cervical cancer.11
The first step of care is screening women for cervical cancer with the Papanicolaou test
or “Pap” test. With timely screening, diagnosis, notification, and treatment, the cancer is
highly preventable and associated with long survival and good quality of life.

VHA policy outlines specific requirements that must be met by facilities that provide
services for women veterans.12 We reviewed EHRs, meeting minutes and other
relevant documents, and interviewed key WH employees. Table 3 shows the areas
reviewed for this topic. The review elements marked as NC needed improvement.
Details regarding the findings follow the table.

             NC                                       Areas Reviewed
                               Cervical cancer screening results were entered into the
                               patient’s EHR.
              X                The ordering VHA provider or surrogate was notified of results
                               within the defined timeframe.
              X                Patients were notified of results within the defined timeframe.
                               Each CBOC has an appointed WH Liaison.
                               There is evidence that the CBOC has processes in place to
                               ensure that WH care needs are addressed.
                                                 Table 3. WH

There were 18 patients who received a cervical cancer screening at the Coatesville
VAMC’s CBOCs.

Patient Notification of Normal Cervical Cancer Screening Results. VHA requires that
normal cervical cancer screening results must be communicated to the patient in terms
easily understood by a layperson within 14 days from the date of the pathology report
becoming available. We reviewed 18 EHRs of patients who had normal cervical cancer
screening results and determined that 6 patients were not notified within the required
14 days from the date the pathology report became available.

Provider Notification. VHA requires that normal cervical cancer screening results must
be reported to the ordering provider or surrogate within 30 calendar days of the report

10
   World Health Organization, Comprehensive Cervical Cancer Prevention and Control: A Healthier Future for

Girls and Women, Retrieved (4/25/2013): http://www.who.int/reproductivehealth/topics/cancers/en/index.html.

11
   U.S. Cancer Statistics Working Group, United States Cancer Statistics: 1999-2008 Incidence and Mortality Web-

based report.

12
   VHA Handbook 1330.01, Health Care Services for Women Veterans, May 21, 2010.



VA OIG Office of Healthcare Inspections                                                                        4
                                                                         CBOC Reviews at Coatesville VAMC


being issued and the notification is documented in the EHR.13 We reviewed the EHRs
of 18 patients who had normal cervical cancer screening results and did not find
documentation in 3 records that the ordering provider or surrogate was notified within
30 calendar days.

Recommendations

1. We recommended that managers ensure that patients with normal cervical cancer
screening results are notified of results within the defined timeframe and that notification
is documented in the EHR.

2. We recommended that a process is established to ensure that the ordering provider
or surrogate is notified of normal cervical cancer screening results within the allotted
timeframe and that notification is documented in the EHR.

Vaccinations
The VHA NCP was established in 1995. The NCP establishes and monitors the clinical
preventive services offered to veterans, which includes the administration of vaccines.14
The NCP provides best practices guidance on the administration of vaccines for
veterans. The Centers for Disease Control and Prevention states that although
vaccine-preventable disease levels are at or near record lows, many adults are under-
immunized, missing opportunities to protect themselves against tetanus and
pneumococcal diseases.

Adults should receive a tetanus vaccine every 10 years. At the age of 65, individuals
that have never had a pneumococcal vaccination should receive one. For individuals
65 and older who have received a prior pneumococcal vaccination, one-time
revaccination is recommended if they were vaccinated 5 or more years previously and
were less than 65 years of age at the time of the first vaccination.

We reviewed documentation of selected vaccine administrations and interviewed key
personnel. Table 4 shows the areas reviewed for this topic.

         NC                                       Areas Reviewed
                      Staff screened patients for the tetanus vaccination.
                      Staff administered the tetanus vaccine when indicated.
                      Staff screened patients for the pneumococcal vaccination.
                      Staff administered the pneumococcal vaccine when indicated.
                      Staff properly documented vaccine administration.
                      Managers developed a prioritization plan for the potential occurrence of
                      vaccine shortages.
                                             Table 4. Vaccinations



13
     VHA Handbook 1330.01.

14
     VHA Handbook 1120.05, Coordination and Development of Clinical Preventive Services, October 13, 2009.



VA OIG Office of Healthcare Inspections                                                                       5
                                                     CBOC Reviews at Coatesville VAMC


Generally the CBOCs assigned to the Coatesville VAMC were compliant with the review
areas; therefore, we made no recommendations.




VA OIG Office of Healthcare Inspections                                            6
                                                                       CBOC Reviews at Coatesville VAMC



                                 Onsite Reviews

                         Results and Recommendations

CBOC Characteristics
We formulated a list of CBOC characteristics that includes identifiers and descriptive
information for the randomly selected CBOC (see Table 5).

                                                                          Springfield
 VISN                                                                          4
 Parent Facility                                                       Coatesville VAMC
 Types of Providers                                                    Physician Assistant
                                                                     Primary Care Physician
                                                                          Psychiatrist
                                                                          Psychologist
 Number of MH Uniques, FY 2012                                                 597
 Number of MH Visits, FY 2012                                                4,614
 MH Services Onsite                                                           Yes
 Specialty Care Services Onsite                                               WH
 Ancillary Services Provided Onsite                                 Electrocardiogram
                                                                        Laboratory
 Tele-Health Services                                        Care Coordination Home Telehealth
                                                                       Dermatology
                                                                         MOVE15
                                                                      Retinal Imaging
                                          Table 5. Characteristics




  15
       VHA Handbook 1120.01, MOVE! Weight Management Program for Veterans, March 31, 2011.


  VA OIG Office of Healthcare Inspections                                                            7
                                                             CBOC Reviews at Coatesville VAMC


C&P
We reviewed C&P folders, scopes of practice, meeting minutes, and VetPro information
and interviewed senior managers to determine whether facilities had consistent
processes to ensure that providers complied with applicable requirements as defined by
VHA policy.16 Table 6 shows the areas reviewed for this topic.

           NC                                       Areas Reviewed
                         Each provider’s license was unrestricted.
                                             New Provider
                         Efforts were made to obtain verification of clinical privileges
                         currently or most recently held at other institutions.
                         FPPE was initiated.
                         Timeframe for the FPPE was clearly documented.
                         The FPPE outlined the criteria monitored.
                         The FPPE was implemented on first clinical start day.
                         The FPPE results were reported to the medical staff’s Executive
                         Committee.
                                        Additional New Privilege
                         Prior to the start of a new privilege, criteria for the FPPE were
                         developed.
                         There was evidence that the provider was educated about FPPE
                         prior to its initiation.
                         FPPE results were reported to the medical staff’s Executive
                         Committee.
                                          FPPE for Performance
                         The FPPE included criteria developed for evaluation of the
                         practitioners when issues affecting the provision of safe, high-
                         quality care were identified.
                         A timeframe for the FPPE was clearly documented.
                         There was evidence that the provider was educated about FPPE
                         prior to its initiation.
                         FPPE results were reported to the medical staff’s Executive
                         Committee.
                               Privileges and Scopes of Practice
                         The Service Chief, Credentialing Board, and/or medical staff’s
                         Executive Committee list documents reviewed and the rationale for
                         conclusions reached for granting licensed independent practitioner
                         privileges.
                         Privileges granted to providers were setting, service, and provider
                         specific.
                         The determination to continue current privileges was based in part
                         on results of Ongoing Professional Practice Evaluation activities.
                                          Table 6. C&P


16
     VHA Handbook 1100.19.


VA OIG Office of Healthcare Inspections                                                    8
                                                           CBOC Reviews at Coatesville VAMC


The CBOC was compliant with the review areas; therefore, we made no
recommendations.

EOC and Emergency Management
EOC

To evaluate the EOC, we inspected patient care areas for cleanliness, safety, infection
control, and general maintenance. We reviewed relevant documents and interviewed
key employees and managers. Table 7 shows the areas reviewed for this topic.

        NC                                      Areas Reviewed
                    The CBOC was Americans Disabilities Act-compliant, including:
                    parking, ramps, door widths, door hardware, restrooms, and
                    counters.
                    The CBOC was well maintained (e.g., ceiling tiles clean and in good
                    repair, walls without holes, etc.).
                    The CBOC was clean (walls, floors, and equipment are clean).
                    Material safety data sheets were readily available to staff.
                    The patient care area was safe.
                    Access to fire alarms and fire extinguishers was unobstructed.
                    Fire extinguishers were visually inspected monthly.
                    Exit signs were visible from any direction.
                    There was evidence of fire drills occurring at least annually.
                    Fire extinguishers were easily identifiable.
                    There was evidence of an annual fire and safety inspection.
                    There was an alarm system or panic button installed in high-risk
                    areas as identified by the vulnerability risk assessment.
                    The CBOC had a process to identify expired medications.
                    Medications were secured from unauthorized access.
                    Privacy was maintained.
                    Patients’ personally identifiable information was secured and
                    protected.
                    Laboratory specimens were transported securely to prevent
                    unauthorized access.
                    Staff used two patient identifiers for blood drawing procedures.
                    Information Technology security rules were adhered to.
                    There was alcohol hand wash or a soap dispenser and sink available
                    in each examination room.
                    Sharps containers were less than 3/4 full.
                    Safety needle devices were available for staff use (e.g., lancets,
                    injection needles, phlebotomy needles).
                    The CBOC was included in facility-wide EOC activities.
                                          Table 7. EOC




VA OIG Office of Healthcare Inspections                                                  9
                                                            CBOC Reviews at Coatesville VAMC


The CBOC was compliant with the review areas; therefore, we made no
recommendations.

Emergency Management

VHA policy requires each CBOC to have a local policy or standard operating procedure
defining how medical and MH emergencies are handled.17 Table 8 shows the areas
reviewed for this topic.

          NC                                      Areas Reviewed
                       There was a local medical emergency management plan for this
                       CBOC.
                       The staff articulated the procedural steps of the medical emergency
                       plan.
                       The CBOC had an automated external defibrillator onsite for cardiac
                       emergencies.
                       There was a local MH emergency management plan for this CBOC.
                       The staff articulated the procedural steps of the MH emergency
                       plan.
                                 Table 8. Emergency Management

The CBOC was compliant with the review areas; therefore, we made no
recommendations.




17
     VHA Handbook 1006.1.


VA OIG Office of Healthcare Inspections                                                  10
                                                          CBOC Reviews at Coatesville VAMC
                                                                               Appendix A

                            VISN 4 Director Comments


               Department of
               Veterans Affairs                             Memorandum


       Date:           July 22, 2013

       From:           Director, VISN 4 (10N4)

       Subject:        CBOC Reviews at Coatesville VAMC

       To:             Director, 54DC Healthcare Inspections Division (54DC)

                       Acting Director, Management Review Service (VHA 10AR
                       MRS OIG CAP CBOC)

       I have reviewed the information provided by the Coatesville VA Medical
       Center and I am submitting it to your office as requested. I concur with all
       responses and target dates.

       If you have any questions or require additional information, please contact
       Barbara Forsha, VISN 4 Quality Management Officer at 412-822-3290.



        //Original signed by//
        Michael E. Moreland, FACHE




VA OIG Office of Healthcare Inspections                                                11
                                                             CBOC Reviews at Coatesville VAMC
                                                                                  Appendix B

                            Facility Director Comments



               Department of
               Veterans Affairs                                Memorandum


       Date:           July 17, 2013

       From:           Director, Coatesville VAMC (542/00)

       Subject:        CBOC Reviews at Coatesville VAMC

       To:             Director, VISN 4 (10N/4)

       1.	 I have reviewed the OIG Report on the Community Based Outpatient
           Clinics Review of the Coatesville VA Medical Center. We concur with
           the findings and recommendations.

       2.	 I appreciate the opportunity for this review as a continuing process to
           improve care to our Veterans.




       //Original signed by//
       Gary W. Devansky




VA OIG Office of Healthcare Inspections                                                   12
                                                           CBOC Reviews at Coatesville VAMC


                               Comments to OIG’s Report

The following Director’s comments are submitted in response to the recommendations
in the OIG report:

OIG Recommendations

1. We recommended that managers ensure that patients with normal cervical cancer
screening results are notified of results within the defined timeframe and that notification
is documented in the EHR.

Concur

Target date for completion: Implemented July 19, 2013

Target Completion: October 31, 2013

CVAMC providers will inform the patient of normal results through a mailed patient
notification letter within fourteen (14) days. The provider will record the patient was
notified of normal results in the electronic medical record. The cervical cancer screening
results are recorded on the Women’s Testing Shared Drive. The Women Veterans
Program Manager will review the Women’s Testing Shared Drive weekly to ensure
timely notification of results. The Women Veterans Program Manager will send
reminders to providers as necessary. The process of timely notification of normal
cervical cancer screening results will be monitored and reported as part of our Primary
Care Quarterly Report to Executive Management.

2. We recommended that a process is established to ensure that the ordering provider
or surrogate is notified of normal cervical cancer screening results within the allotted
timeframe and that notification is documented in the EHR.

Concur

Target date for completion: Implemented July 19, 2013

Target Completion: October 31, 2013

CVAMC Laboratory Manager will send an electronic view alert to the provider with
normal cervical cancer screening results within twenty-four (24) hours of receipt. The
Laboratory Manager will also send a hard copy of the report to the provider within
twenty-four (24) hours of receipt. The process of timely notification of normal cervical
cancer screening results will be monitored and reported as part of our Primary Care
Quarterly Report to Executive Management.




VA OIG Office of Healthcare Inspections                                                  13
                                                           CBOC Reviews at Coatesville VAMC
                                                                                Appendix C


                 OIG Contact and Staff Acknowledgments
Contact                 For more information about this report, please contact the OIG
                        at (202) 461-4720.
Onsite                  Myra Conway, RN, MS
Contributors            Donna Giroux ,RN, BSN, CPHQ
Other                   Shirley Carlile, BA
Contributors            Lin Clegg, PhD
                        Marnette Dhooghe, MS
                        Kay Foster, RN
                        Matt Frazier, MPH
                        Jennifer Reed, RN, MSHI
                        Victor Rhee, MHS
                        Natalie Sadow-Colón, MBA, Program Support Assistant
                        Patrick Smith, M. Stat
                        Marilyn Stones, BS
                        Mary Toy, RN, MSN
                        Jarvis Yu, MS




VA OIG Office of Healthcare Inspections                                                  14
                                                       CBOC Reviews at Coatesville VAMC
                                                                            Appendix D


                                   Report Distribution
VA Distribution

Office of the Secretary
Veterans Health Administration
Assistant Secretaries
General Counsel
Director, VISN 4 (10N4)
Director, Coatesville VAMC (542/00)

Non-VA Distribution

House Committee on Veterans’ Affairs
House Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
House Committee on Oversight and Government Reform
Senate Committee on Veterans’ Affairs
Senate Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
Senate Committee on Homeland Security and Governmental Affairs
National Veterans Service Organizations
Government Accountability Office
Office of Management and Budget
U.S. Senate: Robert P. Casey, Jr., Patrick J. Toomey
U.S. House of Representatives: Robert A. Brady, Jim Gerlach, Patrick Meehan,
 Joseph R. Pitts


This report is available at www.va.gov/oig




VA OIG Office of Healthcare Inspections                                              15
